Office of Inspector General


November 13, 2012

MEMORANDUM

TO:                  USAID/Serbia Mission Director, Susan Fritz
                     USAID/Kosovo Regional Contracting Officer, Brian Aaron
                     USAID/E3/MPEP Director, Shari Berenbach

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Review of USAID/Serbia’s Opportunity Bank Project
                     (Report No. 9-000-13-001-S)

USAID’s Office of Inspector General (OIG), Performance Audits Division conducted a review in
response to an inquiry from the regional contracting officer in Budapest. The officer asked for a
review of USAID/Serbia’s Opportunity Bank project to determine whether it was designed and
implemented to meet the dual objectives of issuing loans to the underserved population of
Serbia and providing for funds to be paid back to USAID at the end of the project. Based on our
review, we made the following conclusions.

     Opportunity International (OI) created and developed a microfinance institution in Serbia to
     issue loans to the underserved population of Serbia, but the project was not designed, from
     the outset, to require funds to be paid back to USAID at the end of the project.

     The repayment requirement in Modification 2 of the agreement is legally binding.

     USAID lacks clear guidance for disposition of funds at the end of microfinance type awards.

The mission’s original cooperative agreement with OI dated September 29, 2003, included an
initial equity investment of $8 million, but it did not outline repayment requirements clearly.
Subsequently, in Modification 2 dated December 8, 2005, the mission added language that
required OI to repay the entire equity investment amount, plus 3 percent interest, at the end of
the project.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
                                                  -2-


Even though OI signed the modification in December 2005, the $8 million was not recorded as a
liability by OI until 2010. The 2010 A-133 financial audit report1 stated that, during OI’s
negotiations with USAID to extend the Serbia grant agreement, “it became apparent to [OI]
management in late 2010 that USAID was expecting repayment from its initial equity investment
made in 2005; however, management did not perform or document an analysis to determine the
appropriate accounting treatment of the transaction until September 9, 2011.” An OI official said
they did not record the $8 million as a liability at the time because they interpreted the language
in Modification 2 to mean one of three things: (1) OI would repay USAID when it sold
Opportunity Bank Serbia, (2) OI would repay USAID in 2011, or (3) the agreement officer could
decide to forgive the debt altogether because of the language in the modification stating “except
as agreement officer may otherwise direct.” Equivocal language around a financial transaction
of this nature does not seem appropriate; OI interpreted this language to be a loophole.

The OI official said other similar agreements OI had in place at the time with USAID in Albania
and Montenegro did not have a repayment requirement. USAID/Washington staff confirmed
that the Agency historically has given funds to organizations to establish microfinance
institutions without stating clearly in the award document what would happen to those funds at
the end of each project.

OI has since agreed to repay the funds, and Modification 5, dated September 24, 2012, includes
a disposition plan with a timeline and milestones. However, the project was not designed
originally to require that OI repay the funds to USAID.

OIG asked the USAID Office of the General Counsel to review the agreement and the
repayment provision in Modification 2 and to provide a legal opinion on whether the repayment
requirement is legally binding. Officials in that office determined that the provision is valid and
binding and provided guidance for how the Agency should enforce the terms of repayment.
Therefore, we make the following recommendations.

    Recommendation 1: We recommend that USAID/Serbia and the regional contracting
    officer2 responsible for the agreement follow the guidance provided by the USAID Office
    of the General Counsel regarding how USAID should enforce the terms of repayment.

    Recommendation 2: We recommend that USAID/Serbia report in writing on the
    progress against each of the milestones outlined in the disposition timeline contained in
    Modification 5 to the regional contracting office, and provide an explanation and any
    associated mitigating circumstances for milestones that are not met.

During the review, we learned about other USAID-funded projects where the lack of clear
disposition requirements at the outset caused misunderstandings at the end over whether or
not—or how—Agency funds were to be repaid, turned over to the supported organization, or
applied to a new activity. ADS Chapter 219, Microenterprise Development, contains no
disposition guidelines. According to USAID’s Europe and Eurasia Enterprise Oversight Team,
their past experiences with investment funds have showed that clear expectations and guidance
on how to use assets remaining at the end of activities should be defined at the outset. Though
investment funds and microfinance institutions are different types of organizations, similar


1
  Annual financial audits are required by the Office of Management and Budget Circular A-133.
2
  As of October 2012, USAID/Kosovo’s regional contracting office provides acquisition and assistance
coverage for USAID/Serbia.
                                                 -3-


complications can arise when the rules governing the disposition of funds are not stated clearly
up front.

Based on the above, we make the following recommendation.

      Recommendation 3: We recommend that USAID’s Office of Microenterprise and
      Private Enterprise Promotion work with other offices in USAID to develop microfinance
      institution disposition guidance for existing agreements as well as future agreements and
      document the results.


cc:      USAID/M/CFO/APC, Gloria White
         USAID/Serbia Controller, Rebecca Krzywda
         USAID/GC/A&A Attorney Advisor General, Linda Leonard
                                                                                     Attachment I



EVALUATION OF MANAGEMENT
COMMENTS
On December 13, 2012 and January 18, 2013, USAID/Serbia and USAID’s Office of
Microenterprise and Private Enterprise Promotion (MPEP) provided responses to our
management letter. On the basis of information provided by USAID/Serbia and MPEP, we
determined that management decisions have been reached on all three recommendations.

In their response, USAID/Serbia included details regarding a meeting that took place with
Opportunity International (OI) on November 16, 2012. During this meeting, OI expressed
concerns about being able to meet their liability to USAID. OI subsequently submitted a revised
proposal and business plan on December 5, 2012 with a commitment for OI to return to USAID
a portion of the proceeds from the sale of Opportunity Bank Serbia (OBS). The amount
proposed to be returned to USAID is significantly less than the amount currently required by the
cooperative agreement. USAID/Serbia is currently analyzing Ol's proposal and business plan,
and is working with the regional contracting officer and regional legal advisor on a response.

Recommendation 1. USAID/Serbia and the regional contracting officer agree to follow the
guidance provided by USAID's Office of the General Counsel (according to which Modification
No. 02 is a binding modification) regarding how to enforce the terms of repayment. The mission
plans to come to an agreement with OI for re-programming the funds for purposes and activities
consistent with the cooperative agreement and issue a new modification setting forth the terms
for the reprogramming. The details of this will be negotiated with OI as part of USAID/Serbia's
response to the December 5, 2012 proposal from OI. Accordingly, a management decision has
been reached.

Recommendation 2. USAID/Serbia agrees to report in writing on the progress against each of
the milestones outlined in the disposition timeline contained in Modification No. 05 to the
regional contracting office, and provide an explanation and any associated mitigating
circumstances for milestones that are not met. This shall be in addition to - and in response to -
the monthly updates that OI is required to provide to USAID on the status of the disposition plan
milestones. Accordingly, a management decision has been reached.

Recommendation 3. MPEP agrees to develop microfinance institution disposition guidance for
existing and future agreements by July 8, 2013. For existing agreements, they will determine if
the appropriate disposition language is already contained in the agreement. If not, they will
assist with drafting appropriate language to be incorporated into the agreement through a
modification. MPEP will also draft standard language to be incorporated into any new
agreements under which direct support will be provided to microfinance institutions. This
language will provide clear guidance and draft agreement language that can be used in the
future for the support of microfinance institutions.

While this recommendation is not an action for USAID/Serbia, USAID/Serbia noted that its
Economic Growth Office has been in contact with MPEP to provide updates regarding the
issues surrounding OI and OBS and will continue to do so in order to inform their guidance.

Accordingly, a management decision has been reached.
